No. 19-635
In the

Supreme Court of the United States
DONALD J. TRUMP, President
of the United States,
Petitioner,
v.
CYRUS R. VANCE, JR., in his official capacity
as District Attorney of the County of New
York; MAZARS USA, LLP,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Second Circuit

REPLY BRIEF
William S. Consovoy
A lexa R. Baltes
Consovoy McCarthy PLLC
1600 Wilson Boulevard,
Suite 700
Arlington, VA 22209
(703) 243-9423

Jay A lan Sekulow
Counsel of Record
Stuart J. Roth
Jordan Sekulow
Constitutional Litigation
and A dvocacy Group, P.C.
1701 Pennsylvania Avenue,
NW, Suite 200
Washington, DC 20006
(202) 546-8890
jsekulow@claglaw.com

Patrick Strawbridge
Consovoy McCarthy PLLC
Ten Post Office Square
8th Floor South PMB #706
Boston, MA 02109
(617) 227-0548
Counsel for President Donald J. Trump
292756

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . ii
REPLY BRIEF FOR PETITIONER . . . . . . . . . . . . . . . 1
I.

The petition raises important federal questions
that warrant review . . . . . . . . . . . . . . . . . . . . . . . . 1

II. The Second Circuit’s decision is incorrect  . . . . . 4
A. The President is entitled to immunity . . . . . 4
B. The subpoena does not, at a minimum,
meet the heightened show ing of
need that Nixon requires . . . . . . . . . . . . . . . 9
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

ii
TABLE OF AUTHORITIES
Page
Cases
Cheney v. U.S. Dist. Court for Dist. of Columbia,
542 U.S. 367 (2004) . . . . . . . . . . . . . . . . . . . . . . . .  10, 11
Clinton v. Jones,
520 U.S. 681 (1997) . . . . . . . . . . . . . . . . . . . . . . . passim
Trump v. Mazars USA, LLP,
2019 WL 5991603 (D.C. Cir. 2019) . . . . . . . . . . . . . . . . 3
Trump v. Mazars USA, LLP,
940 F.3d 710 (D.C. Cir. 2019) . . . . . . . . . . . . . . . . . . . . 7
United States v. Nixon,
418 U.S. 683 (1974)  . . . . . . . . . . . . . . . . . . . . .  3, 7, 9, 10
United States v. Williams,
504 U.S. 36 (1992) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Rule and Other Authorities
U.S. Const. Art. II . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 8, 10
Fed. R. Crim. P. 17(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . 9-10
S. Ct. R. 15.2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

iii
Authorities
Page
3 Joseph Story, Commentaries on the
Constitution of the United States § 1563
(1833) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
A Sitting President’s Amenability to Indictment
and Criminal Prosecution,
24 O.L.C. Op. 222 (Oct. 16, 2000) . . . . . . . . . . . 6, 7, 8, 9

1
REPLY BRIEF FOR PETITIONER
The President—supported by the Solicitor General—
seeks this Court’s review of a decision denying him
absolute immunity. The Court traditionally grants review
under these circumstances. The District Attorney’s Brief
in Opposition (“BIO”) nevertheless urges the Court to
deny certiorari here because, in his view, the Second
Circuit’s decision is correct. He is wrong. The decision
below is deeply flawed. More importantly, the Court hears
these cases because of the importance of the issue and the
respect due the President and the Executive Branch—not
based on a prediction as to who will ultimately prevail on
the merits. This case should be no exception. The Court
should grant the petition.
I.

The petition raises important federal questions that
warrant review.

The District Attorney acknowledges (at 1) that “this
Court has in the past granted review to decide important
and unanswered questions of presidential immunity.”
Indeed, this Court traditionally grants review when the
Chief Executive presses a claim of absolute immunity.
Petition (“Pet.”) 16-18. The Court should adhere to that
practice. The Second Circuit’s decision “resolves grave
and important questions regarding Article II and the
Supremacy Clause. It upholds a state criminal subpoena
that has no historical precedent. And it poses a serious
threat to the autonomy of the Office of the President of
the United States.” Brief of the United States as Amicus
Curiae Supporting Petitioner (“SG Br.”) 22. Those concerns
“merit ... respectful and deliberate consideration.” Clinton
v. Jones, 520 U.S. 681, 690 (1997). The District Attorney

2
may see this as just an “ordinary investigation of financial
improprieties” that should receive no special consideration.
BIO 1. But that is not how this Court approaches petitions
by the President. Pet. 16-17.
The District Attorney’s only argument for opposing
certiorari is that, in his view, the case raises no
“substantial, open questions regarding presidential
immunity.” BIO 11. But the Solicitor General disagrees.
The Second Circuit did too, concluding that the President
makes “serious claims,” App. 13a, concerning an issue that
“the Supreme Court has not had occasion to address,”
App. 21a. The district court similarly explained that “the
precise constitutional question this action presents ... has
not been presented squarely in any judicial forum, and
thus has never been definitively resolved.” App. 68a. The
District Attorney himself agreed that “no court has ruled
on the precise issue presented here.” CA2 Doc. 99 at 34.
In short, “this Court has never had occasion to determine
the precise scope of the President’s immunity from such
an assertion of criminal jurisdiction.” SG Br. 12.
The District Attorney adds that review is nonetheless
unwarranted because the Second Circuit’s ruling is
“plainly correct under a straightforward application of this
Court’s precedent.” BIO 1. But even if that were true, this
Court rejected that argument as a reason to deny review
in Jones. Pet. 16. Review was justified because the lower
courts had rejected President Clinton’s absolute-immunity
claim and because the Executive Branch raised red flags
over “the potential impact of the precedent established by
the Court of Appeals.” Jones, 520 U.S. at 690. Those same
factors prove the “importance”—and hence establish the
reason for review—of this case as well. Id. at 689.

3
Regardless, the District Attorney’s argument fails on
its own terms. In particular, he argues that United States
v. Nixon, 418 U.S. 683 (1974), forecloses the President’s
claim of immunity. BIO 15-19. That is incorrect. Pet. 2730; infra 4-9. But even if he were right, application of
the Nixon standard independently justifies review. Pet.
34-36; SG Br. 5-20; infra 9-11. Whether a state grand
jury’s subpoena for the President’s records can be upheld
without a “heightened showing of need” is an important
issue. SG Br. 6.1 Indeed, whether any subpoena for a
President’s personal records can be upheld without that
showing is an important and recurring issue. Pet. 6; SG
Br. 21 n*; Trump v. Mazars USA, LLP, 2019 WL 5991603,
at *1 (D.C. Cir. 2019) (Katsas, J., dissenting from denial
of rehearing en banc).
The District Attorney’s argument (at 16, 19-20) that
Jones forecloses the President’s claim also is misplaced.
Pet. 30-31. Both cases involve unofficial action. But
Jones resolved the President’s amenability to a civil suit
in federal court—not a state criminal subpoena. Even
if this case involved a “comparable claim” to the one
in Jones, the Court expressly reserved there whether
absolute immunity would apply had the case arisen from a
proceeding before a “state tribunal” given the “federalism
and comity concerns” that such a dispute would raise.
1. In passing, the District Attorney suggests that this
question is not before the Court because the President “failed
to raise the issue below.” BIO 32 n.15. That is wrong. CA2 Doc.
121 at 26-27. It is also irrelevant. The Court’s “traditional rule ...
precludes a grant of certiorari only when ‘the question presented
was not pressed or passed upon below.’” United States v. Williams,
504 U.S. 36, 41 (1992). Because “this rule operates (as it is phrased)
in the disjunctive, ... review of an issue not pressed” is permitted
“so long as it has been passed upon” in the court of appeals. Id.
The Second Circuit passed on this question. App. 27a-28a.

4
520 U.S. at 691. “Whether those concerns would present
a more compelling case for immunity is a question that
[was] not before [the Court].” Id.
II. The Second Circuit’s decision is incorrect.
As explained, the decision to grant certiorari in a case
like this turns on the Court’s “appraisal of its importance”
instead of a “judgment concerning the merits of the case.”
Id. at 689. But even if the ultimate merit of the President’s
claims matters, certiorari is warranted just the same. The
subpoena is unconstitutional.
A.

The President is entitled to immunity.

The District Attorney’s argument against immunity
hinges on his assertion that this case involves the “narrow
question” of whether a state grand jury may subpoena
the personal records of a sitting President if they are
“relevant” to that investigation “and have no relation
to official actions taken by the President during his
time in office.” BIO 1. That framing does not accurately
reflect the circumstances that led the President to invoke
immunity. This is about whether a state may target a
sitting President for possible indictment and subpoena
his personal records as part of that criminal investigation.
The District Attorney counters that the President has
not been “named as a target.” BIO 26 (emphasis added).
But that is semantics. The petition characterizes the
subpoena as having been issued “for the express purpose
of deciding whether to indict him for state crimes” and “as
part of a grand-jury proceeding that seeks to determine
whether the President committed a state-law crime.” Pet.

5
2, 4. In his brief, the District Attorney does not challenge
these factual representations. He instead confirms that
the basis for the investigation is the President’s alleged
conduct, BIO 2-5, that the President is “a subject of the
investigation,” BIO 12, that “the investigation extends
beyond [the President],” and that “‘it is unclear whether
the President will be indicted,’” BIO 26 (emphasis added).
The President’s characterization of the subpoena’s
purpose and scope is the factual predicate that will control
if review is granted. See S. Ct. R. 15.2.
Furthermore, it appears that the District Attorney
is contemplating indicting the President while in office.
After all, the District Attorney says that without expedited
review the “criminal conduct may go unpunished, giving
Petitioner a de facto victory,” BIO 34, even though the
President has offered to toll the limitations period, CA2
Doc. 80 at 58. The District Attorney continues that the
President “could interpose any objections to, or assert any
rights against, a potential indictment” should the grand
jury proceed with “criminal charges.” BIO 24 n.10. That
would only matter, of course, if the grand jury pursues
indictment of the President while he is still in office. In
all, there can be no doubt that this investigation is about
indicting the President, and the grand jury subpoena
for his records is part of that pursuit. It is against this
backdrop—and not the artificially narrow question the
District Attorney has framed—that the Court must decide
if these are “appropriate circumstances,” Jones, 520 U.S.
at 703, to temporarily shield the President from coercive
criminal process.

6
In focusing myopically on whether the President
was granted immunity in other settings, BIO 12-20, the
District Attorney also skips a key step: analysis of the
factors that the Court weighs in deciding whether a given
legal process “risks intrusion upon the functions of the
Presidency,” SG Br. 10. This categorical inquiry begins
by asking whether the President might be physically kept
from “carry[ing] out his duties,” A Sitting President’s
Amenability to Indictment and Criminal Prosecution,
24 O.L.C. Op. 222, 246 (Oct. 16, 2000) (Moss Memo), and
ends there if it would, 3 Joseph Story, Commentaries
on the Constitution of the United States § 1563 (1833).
If not, absolute immunity while in office is nevertheless
required when “the public stigma and opprobrium ...
could compromise the President’s ability to fulfill his
constitutionally contemplated leadership role with respect
to foreign and domestic affairs,” or when “the mental and
physical burdens ... might severely hamper the President’s
performance of his official duties.” Moss Memo 246; see
Pet. 19-22.
Though—like indictment—compliance with the
Mazars subpoena will not deprive the President of
liberty, the other factors strongly support immunity. Pet.
19-26. The District Attorney argues that the stigma of
this criminal process should be irrelevant and that the
concern is “overblown” in any event. BIO 25-26. But the
President’s unique constitutional status undermines both
objections. The President cannot effectively discharge his
vast domestic and international duties under the cloud
created by a local prosecutor demanding his personal
records and threatening criminal prosecution. Pet. 14-15.

7
Nor can there be any doubt that the mental burdens
created by being embroiled in this type of criminal process
interfere with the President’s ability to focus on his official
duties. Pet. 28; SG Br. 10. The District Attorney responds
that such burdens are minimal here because the subpoena
targets unofficial conduct and was issued to the President’s
accountants instead of to him directly. BIO 18-20. But it is
the criminal nature of the subpoena, when accompanied
by threat of indictment, that creates the distraction—not
the official or unofficial nature of the allegations. That
physical compliance with the grand jury’s demand would
fall to the custodian does not eliminate the distraction.
SG Br. 16-17. 2
The District Attorney’s contention (at 15-20) that
Nixon forecloses this argument is likewise off target.
Pet. 27-30. To be sure, the parties dispute how to define
President Nixon’s status—as a third-party witness or an
unindicted coconspirator. The President has the better
of the argument, SG Br. 15, but it doesn’t matter. What
is not debatable is that the Special Prosecutor in Nixon
disclaimed any intent to indict the President. Moss Memo
237-38 n.14. The District Attorney’s reliance on Jones (at
19-20) is also misplaced. Pet. 30-31. As noted, the burden
of being mired in a compulsory criminal process under
2. The broader effort to avoid the constitutional implications
of this case by portraying the subpoena as “directed at a third
party whose compliance will in no way implicate the balance of
federal and state power” is baseless. BIO 27-28. The President’s
unchallenged standing to contest the validity of this subpoena,
App. 20a n.15, means that the immunity issue must be decided
as if the Mazars subpoena were issued to him directly. Pet. 32;
Trump v. Mazars USA, LLP, 940 F.3d 710, 752-53 (D.C. Cir. 2019)
(Rao, J., dissenting).

8
threat of indictment differs in kind from the mental strain
of being a defendant in civil litigation. Moss Memo 25054. This process could not be less like “a garden-variety
investigation of purely private conduct.” BIO 33.
More fundamentally, the District Attorney’s position
has two inherent defects he cannot overcome. First, he
asks the Court to give decisive weight to the unofficial
nature of the allegations. But that would mean that the
President can be indicted for such conduct—an issue the
District Attorney badly wants to avoid. His refrain that
indictment is “wholly distinct from whether the President
can be the subject of an investigatory subpoena,” BIO 1617, is nonresponsive if the official/unofficial distinction is
a sufficient basis for deciding this case. Pet. 31.
Second, the District Attorney has no answer to the
special problems created by giving the power to ensnare
the Chief Executive in compulsory criminal process to
every state and local prosecutor in the country. Pet. 2325. His assertion that this concern “does not materially
alter the immunity analysis,” BIO 26, is unpersuasive, SG
Br. 8-14. Respect for state police power is a foundational
principle. But so is a vigorous Chief Executive who can
execute his official duties without obstruction from
“thousands of district attorneys across the Nation” armed
with criminal subpoenas “for his financial records, ...
his medical records, … his legal records, and so on....”
SG Br. 17. Whatever the scope of presidential immunity
from process issued by federal prosecutors under the
supervision of federal courts, giving this authority to their
state and local counterparts violates Article II and the
Supremacy Clause.

9
Last, the District Attorney (like the Second Circuit)
mischaracterizes the relief the President seeks. His aim is
neither to “shield ... third parties from investigation” nor
stop the “grand jury [from] continuing to gather evidence
throughout the period of any presidential immunity from
indictment.” BIO 9-10 (citations and quotations omitted).
The complaint asks for this subpoena to be enjoined. D.Ct.
Dkt. 27 at 19. The grand jury, accordingly, can continue
its work. But issuing compulsory criminal process to
the sitting President, when it is accompanied by threat
of indictment, crosses a constitutional line. Honoring
immunity may well make the grand jury’s job harder.
But that is the cost of having a President who is the “‘sole
indispensable man in government.’” Jones, 520 U.S. at 713
(Breyer, J. concurring in the judgment) (citations omitted);
Moss Memo 256-57.
B. The subpoena does not, at a minimum, meet
the heightened showing of need that Nixon
requires.
The subpoena cannot be upheld even if the President is
not absolutely immune. Pet. 34-36. “[A] local grand jury’s
subpoena seeking the President’s personal records clearly
involves sufficiently serious risks of interference with
the President’s performance of his constitutional duties
to justify application of the heightened standard under
Nixon.” SG Br. 18. According to the District Attorney,
however, that heightened standard does not apply because
Nixon (unlike this case) involved an executive-privilege
claim. BIO 31-32. That is incorrect. SG Br. 12-19.
“The heightened standard is at most,” the District
Attorney adds, “a particular application of the standards

10
applicable to all federal subpoenas issued under Federal
Rule of Criminal Procedure 17(c).” BIO 31 n.14. But the
inapplicability of Rule 17(c) would only make heightened
protection under Article II that much more important.
“In Nixon, the Court addressed the issue of executive
privilege only after having satisfied itself that the special
prosecutor had surmounted [Rule 17(c)’s] demanding
requirements,” i.e., the “exacting standards of ‘(1)
relevancy; (2) admissibility; (3) specificity.’” Cheney v.
U.S. Dist. Court for Dist. of Columbia, 542 U.S. 367,
386-87 (2004). “The very specificity of the subpoena
requests” in Nixon was “an important safeguard against
unnecessary intrusion into the operation of the Office of
the President”—even by a federal prosecutor in federal
court. Id. at 387.
If the Second Circuit’s decision is upheld, however, the
President is at the mercy of the State for any protection
against sweeping prosecutorial demands for his personal
records. The President would be entitled to no protection as
a matter of federal law and, accordingly, state prosecutors
could demand “everything under the sky” as far as the
Constitution is concerned. Id. at 387. That is intolerable.
Article II does not require the President “to bear the onus
of critiquing the unacceptable discovery requests line by
line.” Id. at 388. The District Attorney must shoulder the
heavy burden of establishing “a ‘demonstrated, specific
need’ for the President’s personal records.” SG Br. 20
(quoting Nixon, 418 U.S. at 713).
The District Attorney cannot carry that burden. Pet.
35-36; SG Br. 20. He barely tries. Attempting to defend the
indefensible, the District Attorney claims that he copied
two congressional subpoenas instead of crafting a narrow

11
demand because that purportedly “minimizes the burden
on third parties and enables expeditious production
of responsive documents.” BIO 5 n.2. But that is not a
lawful justification for issuing a sweeping demand for the
President’s records that in most—if not all—respects have
nothing do with issues within the criminal jurisdiction of
New York County. Even accepting the District Attorney’s
explanation, then, the Mazars subpoena is “anything but
appropriate.” Cheney, 542 U.S. at 388.
But there is every reason to doubt this explanation.
It just so happens that the District Attorney sought
these sensitive records right when frustration in some
quarters was mounting over the inability to obtain them
through enforcement of congressional subpoenas. Pet.
6-7. And, in these proceedings, the District Attorney has
been unable to suppress the political overtones of the
Mazars subpoena—framing his investigation as part of a
broader narrative about “impeachment,” the President’s
non-compliance “with [congressional] subpoenas,” and
the President’s decision not to disclose his tax returns.
CA2 Doc. 99 at 14, 16; D.Ct. Dkt. 33 at 2 (“The Plaintiff
himself, before taking office, agreed to make [his tax
returns] public, and every prior president for the past forty
years has done so” (footnote omitted)); D.Ct. Dkt. 38 at
43 (“I suppose it’s … possible that the State of New York
could be annexed by Ukraine ….”). There is thus every
reason to doubt that the subpoena was issued because the
District Attorney had a specific, demonstrated need for
these records as part of a good-faith “investigation into
potential violations of state law.” BIO 4.

12
CONCLUSION
The Court should grant the petition.
Respectfully submitted,
William S. Consovoy
Jay A lan Sekulow
A lexa R. Baltes
Counsel of Record
Consovoy McCarthy PLLC
Stuart J. Roth
1600 Wilson Boulevard,
Jordan Sekulow
Constitutional Litigation
Suite 700
and A dvocacy Group, P.C.
Arlington, VA 22209
1701 Pennsylvania Avenue,
(703) 243-9423
NW, Suite 200
Patrick Strawbridge
Washington, DC 20006
Consovoy McCarthy PLLC
(202) 546-8890
Ten Post Office Square
jsekulow@claglaw.com
8th Floor South PMB #706
Boston, MA 02109
(617) 227-0548
Counsel for President Donald J. Trump

